               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Timely Processing of Mail at the
        Richmond, VA Processing and
             Distribution Center

                       Audit Report




                                         September 13, 2011

Report Number NO-AR-11-008
                                                                        September 13, 2011

                                              Timely Processing of Mail at the Richmond,
                                                  VA Processing and Distribution Center

                                                             Report Number NO-AR-11-008



IMPACT ON:                                        color-code arriving mail. Other causes
Excessive delayed mail adversely                  included not accurately identifying and
impacts mailers and Postal Service                reporting delayed mail, and mail
customers.                                        damage caused by poor packaging.

WHY THE OIG DID THE AUDIT:                        WHAT THE OIG RECOMMENDED:
While conducting a concurrent review of           We recommended the district manager,
the U.S. Postal Service’s performance             Richmond District, promptly assess the
during the 2010 Fall Mailing Season, we           current mail volume and swiftly adjust
observed mail processing operations at            workhours, assignments, sort plans,
some Postal Service mail processing               transportation, and other operational
facilities with high delayed mail volumes.        requirements to ensure the Richmond
As a result, in March 2011 we reviewed            P&DC meets customer and service
Richmond Processing & Distribution                commitments.
Center (P&DC) operations and
communicated preliminary                          WHAT MANAGEMENT SAID:
recommendations to Richmond P&DC                  Management agreed with the
management. Because of the                        recommendations and indicated they
magnitude of problems observed, we                have created a Lean Six Sigma team to
decided to issue a separate report on             address delayed mail concerns and
the Richmond P&DC to facilitate and               developed a scheduling model to assist
expedite corrective action.                       plant management in aligning resources
                                                  with workload. Management has also
WHAT THE OIG FOUND:                               filled vacant craft positions and
The Richmond P&DC experienced                     appointed a new plant manager. To
difficulties with timely processing of mail       increase machine run times, plant
during fiscal year (FY) 2010 and Quarter          management established daily tracking
1 of FY 2011. Delayed mail volume rose            mechanisms to monitor machine
from 22.6 million pieces to 54.2 million          throughputs, runtime, and productivities.
over a two year period. This represented
an increase in delayed mail volume of             AUDITORS’ COMMENT:
more than 139 percent, while similar-             The OIG considers management’s
sized facilities decreased delays by 3            comments responsive to the
percent over the same period. The                 recommendations and the corrective
causes for the excessive delayed mail             actions should resolve the issues
were inadequate staffing and                      identified in the report.
supervision, low mail throughput on
machines, and failure to consistently             Link to review the entire report
September 13, 2011

MEMORANDUM FOR:             JACOB L. CHEEKS
                            DISTRICT MANAGER
                            RICHMOND CUSTOMER SERVICE DISTRICT

                                E-Signed by Robert Batta
                              VERIFY authenticity with e-Sign




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Audit Report – Timely Processing of Mail at the Richmond,
                            VA Processing and Distribution Center
                            (Report Number NO-AR-11-008)

This report presents the results of our audit on the timeliness of mail processing at the
Richmond, VA Processing and Distribution Center located in the Richmond District in
the Capital Metro Area (Project Number 11XG038NO000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James Ballard, director,
Network Processing, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    David C. Fields
    Frank Neri
    Isaac S. Cronkhite
    Deborah Giannoni-Jackson
    Corporate Audit and Response Management
                                                TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Delayed Mail Trends and Site Comparisons ................................................................... 1

   Staffing and Supervision .............................................................................................. 5

   Machine Capacity ........................................................................................................ 6

   Color-Coding of Standard Mail .................................................................................... 8

   Mail Condition Reporting ........................................................................................... 11

   Machine Mail Damage ............................................................................................... 12

Impact ........................................................................................................................... 12

Recommendations ........................................................................................................ 13

Management’s Comments ............................................................................................ 14

Evaluation of Management’s Comments ....................................................................... 14

Appendix A: Additional Information ............................................................................... 15

   Background ............................................................................................................... 15

   Objective, Scope, and Methodology .......................................................................... 16

   Prior Audit Coverage ................................................................................................. 17

Appendix B: Management’s Comments ........................................................................ 18
Timely Processing of Mail at the Richmond, VA                                                        NO-AR-11-008
 Processing and Distribution Center


Introduction

This report presents the results of our audit on the timely processing of mail at the
Richmond, VA Processing and Distribution Center (P&DC) located in the Richmond
District in the Capital Metro Area (Project Number 11XG038NO000). This self-initiated
audit addresses operational risk. Our objective was to determine whether mail at the
Richmond P&DC is processed in a timely manner. See Appendix A for additional
information about this audit.

While conducting a concurrent review of the U.S. Postal Service’s performance during
the 2010 fall mailing season, we observed mail processing operations at some Postal
Service mail processing facilities with high delayed mail volumes. As a result, in March
2011, we reviewed Richmond P&DC operations. Because of the magnitude of
conditions observed, we decided to issue a separate report on the Richmond P&DC to
facilitate and expedite corrective action.

Conclusion

The Richmond P&DC experienced difficulties with the timely processing of mail during
fiscal year (FY) 2010 and Quarter 1, FY 2011. This condition led to significant mail
delays in First-Class Mail® (FCM), Periodicals, and Standard Mail® classes and service
declines. The primary causes for the excessive delayed mail were inadequate staffing
and supervision, low mail throughput on machines, failure to consistently color-code
arriving mail, 1 and inaccurate identification and reporting of delayed mail. Also, mail
damage from poorly packaged mail resulted in delayed processing of flat mailpieces.
During the audit management began to take corrective action in a number of areas.

Delayed Mail Trends and Site Comparisons

Delayed mail volume at the Richmond P&DC has increased significantly over the last
couple of years. Delayed mail volume rose from more than 22.6 million pieces in
Quarter 1, FY 2009, to approximately 54.2 million pieces in Quarter 1, FY 2011. This
represented an increase in delayed mail volume of more than 139 percent, while
similar-size facilities decreased delays by 3 percent and all facilities decreased by
2 percent during the same period (see Table 1).




1
  Mail containers did not always have color-code tags and the tags often did not contain the date and time. Not
properly completing color codes prohibited accurate reporting and made adherence to processing mail on a first-in,
first-out basis difficult.
                                                          1
      Table 1: Delayed Mail Trends, Quarter 1, FY 2009 to Quarter 1, FY 2011

                                                          Average of
                                      Richmond P&DC       Similar-Size        All Facilities
                                                           Facilities

Quarter 1, FY 2009 Mail Volume

Quarter 1, FY 2011 Mail Volume

Delayed Mail Volume Change

Percentage Change                        139.65%             -2.92%              -2.03%


Standard Mail accounted for close to 95 percent of all delayed mail at the Richmond
P&DC. Periodicals and Standard delayed mail increased by 2,495 percent and
131 percent, respectively, from Quarter 1, FY 2009 to Quarter 1, FY 2011 (see Table 2).

       Table 2: Richmond P&DC Delayed Processing Trends by Mail Class

                 Priority    FCM         Periodicals   Standard   Packages         Total
Quarter 1, FY
2009
Quarter 1, FY
2011
  Percentage
   Change           37%          NA       2,495%        131%          -100%       140%

For FY 2010, the Richmond P&DC had the highest percentage of delayed mail as a
percentage of first-handled pieces (FHP) volume among similar-sized facilities.
Percentages ranged from 11.69 percent to .29 percent with an average of 3.9 percent
(see Table 3).




                                              2
Timely Processing of Mail at the Richmond, VA                           NO-AR-11-008
 Processing and Distribution Center


Table 3: Richmond P&DC Delayed Processing as a Percent of FHP for FY 2010
                    Compared to Similar-Sized Facilities

            Ranking                   Facility         Percent of FHP
               1        Richmond P&DC                     11.69%
               2        Michigan Metroplex P&DC           11.05%
               3        Pittsburgh P&DC                    9.82%
               4        St. Louis MO P&DC                  9.80%
               5        Milwaukee P&DC                     8.28%
               6        Cincinnati P&DC                    7.59%
               7        Columbus P&DC                      7.57%
               8        Nashville P&DC                     7.14%
               9        Cleveland P&DC                     6.59%
              10        Philadelphia P&DC                  5.61%
              11        Salt Lake City P&DC                5.60%
              12        North Metro P&DC                   5.43%
              13        Oakland P&DC                       5.12%
              14        Charlotte P&DC                     4.57%
              15        Chicago P&DC                       3.98%
              16        Indianapolis P&DC                  3.69%
              17        Mid-Island P&DC                    3.60%
              18        Atlanta P&DC                       3.28%
              19        Baltimore P&DC                     3.19%
              20        North Houston P&DC                 3.18%
              21        Jacksonville P&DC                  3.07%
              22        Sacramento P&DC                    3.07%
              23        Palatine P&DC                      2.81%
              24        Carol Stream P&DC                  2.81%
              25        Houston P&DC                       2.51%
              26        Denver P&DC                        2.19%
              27        Phoenix P&DC                       2.16%
              28        Dominick V Daniels Bldg P&DC       2.02%
              29        New York Morgan P&DC               1.95%
              30        Minneapolis P&DC                   1.91%
              31        Portland P&DC                      1.75%
              32        Santa Clarita P&DC                 1.74%
              33        Kansas City, MO P&DC               1.53%
              34        San Antonio P&DC                   1.46%
              35        North Texas P&DC                   1.41%
              36        Los Angeles P&DC                   1.35%
              37        San Francisco P&DC                 1.26%
              38        Dallas P&DC                        1.16%
              39        Ft. Worth P&DC                     1.12%
              40        Santa Ana P&DC                     0.98%
              41        Margaret Sellers P&DC              0.94%
              42        Tampa P&DC                         0.74%
              43        Seattle P&DC                       0.29%


                                                3
Timely Processing of Mail at the Richmond, VA                                  NO-AR-11-008
 Processing and Distribution Center


When we compared the Richmond P&DC with 43 similar-sized sites by mail class in
FY 2010, we found it had (the lower the ranking, the higher the amount of delayed mail):

    156 million pieces of total delayed mail, ranking it fourth among the sites.
    3.1 million pieces of delayed FCM, ranking it eighth among the sites.
    10.6 million pieces of delayed Periodicals, ranking it third among the sites.
    142 million pieces of delayed Standard Mail, ranking it fourth among the sites.




     Picture 1: Excessive
    Delayed Mail in Staging
             Area

    (June 7, 2011, 5:42 a.m.)




     Picture 2: Delayed
    Standard Mail dated
 February 25, 2011. A note
   from In-Plant Support
    dated March 9, 2011,
  instructs employees to
   process immediately.

(March 10, 2011, 5:58 a.m.)




                                                4
Timely Processing of Mail at the Richmond, VA                                       NO-AR-11-008
 Processing and Distribution Center




   Picture 3: Delayed
newspapers dated the last
 week in May 2011, in the
  manual flat operation.

    (June 7, 2011, 10:46 a.m.)




The President’s Commission on the U.S. Postal Service report dated July 31, 2003,
states that the mission of the Postal Service is:

           . . . to provide high-quality, essential postal services to all persons and
           communities by the most cost-effective and efficient means possible at
           affordable and, where appropriate, uniform rates.

Title 39 U.S.C., Part 1, Chapter 4, §403, states:

           The Postal Service shall plan, develop, promote, and provide
           adequate and efficient postal services at fair and reasonable rates
           and fees.

Handbook PO-420, Small Plant Best Practices Guidelines, dated November 1999,
Chapter 7, In-Plant Support, and Chapter 9, Success Strategies, states that:

           In-Plant Support personnel may assist operations in maintaining
           and updating all signage; and successful small plants maintain
           excellent signage for staging and dispatch areas, respectively.

The primary causes for excessive delayed mail were:

     Inadequate staffing due to a consolidation and poor supervision.
     Low mail throughput on machines.
     Failure to follow color-coding procedures.
     Inaccurate identification and reporting of delayed mail.
     Machine mail damage.

Staffing and Supervision

Staffing and supervision at the Richmond P&DC were inadequate. On June 1, 2010, the
Charlottesville Processing and Distribution Facility consolidated both its originating and

                                                 5
Timely Processing of Mail at the Richmond, VA                                                         NO-AR-11-008
 Processing and Distribution Center


destinating mail processing operations into the Richmond P&DC. As part of the
consolidation, craft and management positions were reassigned to the Richmond
P&DC. However, because of retirements and alternative transfers, not all of the
anticipated reassignments occurred. As a result, the Richmond P&DC was understaffed
by approximately 33 clerks and mail handlers and 37 maintenance employees. 2

Our observations revealed that floor supervisors did not ensure employees adhered to
color-code and mail reporting requirements. Also, they routinely failed to promptly
assess the mail volume and adjust workhours, assignments, sort plans, transportation,
and any other operational requirements to ensure the Richmond P&DC met customer
service commitments. Other factors impacting supervision include:

    Six of 33 Distribution Operation manager positions were vacant at the Richmond
     P&DC. Seven of the 27 remaining supervisors and four of the six Distribution
     Operations managers were promoted and have limited experience.

    High turnover in senior management. The plant has had four different senior plant
     managers in the last 2 years.

Machine Capacity

The Richmond P&DC generally had sufficient machine processing capacity to process
its mail volume timely. However, opportunities exist to better use the machine capacity
on the Automated Flat Sorting Machine (AFSM) 100, Automated Processing Packaging
System (APPS), and Small Parcel and Bundle Sorter (SPBS). Productivity on this mail
processing equipment was below national averages (see Table 4). By increasing
machine productivities, the Richmond P&DC could process more mail and minimize
delayed mail volumes.

                        Table 4: Productivity Comparison in Mailpieces

                                        FY 2010                              FY 2011, Qs 1 and 2

                           Richmond                  National            Richmond               National
                             P&DC                    Average               P&DC                 Average
    AFSM100                  4,189                    5,070                4,710                 4,920
    APPS                      249                      393                  227                   400
    SPBS                      147                      252                  146                   253

In addition, on average, the AFSM 100s, APPS, and SPBS all operated at daily
runtimes lower than the goal of 20 hours (see Table 5).



2
 During our March 2011 visit, Richmond P&DC management stated they needed an additional 55 mail handlers to
properly staff operations. In April, the Richmond P&DC received 28 mail handlers excessed from the Capital District.
Additionally, the Capital Metro Area authorized an additional 35 casual clerks.

                                                          6
Timely Processing of Mail at the Richmond, VA                                              NO-AR-11-008
 Processing and Distribution Center


                         Table 5: Daily Machine Run Time in Hours

                                                 Fiscal Year 2010              FY 2011, Quarter 1
               AFSM 100                                6.82                          7.54
                  APPS                                   11.94                          18.17
                  SPBS                                   10.84                          15.37

Additionally, some major pieces of equipment incurred an extensive amount of idle time
(see Table 6). By decreasing machine idle time, the Richmond P&DC can process more
mail and minimize delayed mail volumes.

                     Table 6: FY 2010 End of Run – Machine Summary

                   Operational
                                    Run Time        Idle Time      Down Time
                      Time                                                        Idle Time Percentage
                                    Workhours       Workhours      Workhours
                   Workhours
          3
     AFCS            14,354            5,118            9,236           0                  64.34
    AFSM 100         12,411           10,302             674          1,435                 5.43
      APPS            4,977            3,606            1,017          353                 20.44
     CIOSS            6,658            4,185            1,773          699                 26.63
      DBCS           67,367           42,151           21,482         3,734                31.89
     DIOSS           20,790           12,026            6,498         2,267                31.25
      SPBS            6,690            4,911            1,571          209                 23.48

We examined the potential for the Richmond P&DC to increase the volume processed
through reducing idle time in letter processing and by increasing the run time in flat and
parcel processing. We found that:

   By reducing idle time on the CIOSSs by 50 percent, the Richmond P&DC could
    process an additional 28.4 million mailpieces annually.

   By reducing idle time on the DBCSs by 50 percent, the Richmond P&DC could
    process an additional 371.7 million mailpieces annually.

   By reducing idle time on the DIOSSs by 50 percent, the Richmond P&DC could
    process an additional 99.9 million mailpieces annually.

   By increasing the run time on the AFSMs by 4 hours per day, the Richmond P&DC
    could process an additional 84 million mailpieces annually.

   By increasing the run time on the APPS by 3 hours per day, the Richmond P&DC
    could process an additional 5.7 million mailpieces annually.


3
 Advanced Facer-Canceller System (AFCS), AFSM, APPS, Combined Input Output System (CIOSS), Delivery
Barcode Sorter (DBCS), Delivery Input Output System (DIOSS), SPBS.



                                                   7
Timely Processing of Mail at the Richmond, VA                                       NO-AR-11-008
 Processing and Distribution Center


    By increasing the run time on the SPBS by 3 hours per day, the Richmond P&DC
     could process an additional 2 million mailpieces annually.

Color-Coding of Standard Mail

We noted some improvements in color-coding, while other processes need to be
improved. During our first visit, the week of March 7, 2011, 163 of 314 containers
(52 percent) were missing color-code tags. However, during our follow-up visit the week
of June 6, 2011, only 29 of 546 containers (5 percent) were missing tags. While more
containers had color-code tags, the tags often did not contain the date and time. In
many cases, the tour number was entered rather than the time. During our March visit,
146 of 314 containers (46 percent) had incomplete tags, while during our June visit,
511 of 546 containers (94 percent) had incomplete tags. See tables 7 and 8 for details.

We also found that when employees processed mail bearing different color-codes
together, they did not properly re-color-code it. Some periodicals were improperly
staged and tagged as Standard Mail. Standard Mail does not receive the same
expedited treatment as Periodicals, thus contributing to Periodicals delays (see Picture
4). Not properly completing color-codes prohibited accurate reporting and made
processing mail on a first-in, first-out basis difficult.

               Table 7: Color-Code Observations the Week of March 7, 2011

                                                            NO. OF        NO. OF
                                              NO. OF      CONTAINERS   CONTAINERS      OVERALL
                                            CONTAINERS      MISSING    INCOMPLETE       ERROR
    DATE       TIME   TOUR   LOCATION        OBSERVED        TAGS         TAGS           RATE
    3/8/2011   2150     3      APPS             18             1            12          72.22%
    3/8/2011   2200     3    APPS (flats)       11                          11          100.00%
    3/8/2011   2205     3      APPS              9             9                        100.00%
    3/8/2011   2215     3      AFSM             18             4           14           100.00%
    3/8/2011   2220     3      AFSM             36            12           24           100.00%
    3/8/2011   2230     3      DBCS             43            10           33           100.00%
    3/9/2011   2055     3       FSS             86            86                        100.00%
    3/9/2011   2057     3      APPS             25            25                        100.00%

 3/10/2011     1215    2        APPS            68           16            52          100.00%
     Total                                      314          163          146          98.40%




                                                      8
Timely Processing of Mail at the Richmond, VA                                       NO-AR-11-008
 Processing and Distribution Center


              Table 8: Color-Code Observations the Week of June 6, 2011

                                                                             NO. OF
                                            NO. OF           NO. OF       CONTAINERS    OVERALL
                                          CONTAINERS      CONTAINERS     W/INCOMPLETE    ERROR
 DATE      TIME    TOUR     LOCATION       OBSERVED       MISSING TAGS       TAGS         RATE
6/7/2011   1040      2     DBCS staging       17                               11        64.71%
                             Low Cost
                            Tray Sorter
6/7/2011    1045     2        (LCTS)            33                            33        100.00%
                               LCTS
6/7/2011    1110     2       induction          15                            15        100.00%
                               LCTS
6/7/2011    1111     2       induction          17                           17         100.00%
6/7/2011    1115     2         Dock             68                           68         100.00%
6/7/2011    1120     2      AFSM 100            45                           45         100.00%
6/7/2011    1140     2      AFSM 100            62             6             56         100.00%
6/8/2011    1220     2      LCTS/Dock           82             13            69         100.00%
6/8/2011    1245     2      AFSM 100            37                           37         100.00%
6/8/2011    1300     2         APPS             27             4             23         100.00%
 6/9/200    2215     3         Dock             143            6             137        100.00%
  Total                                         546            29            511         98.90%




  Picture 4: Periodicals
improperly color-coded as
Standard Mail could cause
   them to be delayed.

 (March 9, 2011, 7:42 a.m.)




                                                      9
Timely Processing of Mail at the Richmond, VA        NO-AR-11-008
 Processing and Distribution Center




  Picture 5: A container
    depicts the wrong
  color-code tag and is
missing the date and time.

 (March 7, 2011, 3:17 p.m.)




  Picture 6: An improper
color-code tag applied by
an employee based on her
    interpretation of the
  color-code policy. The
  employee believed that
 since it was Wednesday,
the mail should be coded
   for Saturday delivery,
 regardless of what color
mail was being fed on the
          machine.

(March 9, 2011, 11:53 a.m.)




                                                10
Timely Processing of Mail at the Richmond, VA                                   NO-AR-11-008
 Processing and Distribution Center




Picture 7: One mailing has
a missed in home date and
    is not color-coded.

    (June 7, 2011, 5:44 a.m.).




Mail Condition Reporting

The Richmond P&DC was not accurately reporting delayed mail. For example,

     On March 9, we identified a significant amount of delayed periodicals, while the Mail
      Condition Reporting System (MCRS) reported no periodicals were delayed. The
      MCRS report was revised to reflect 7,453 delayed pieces with the oldest date of
      February 12.

     On March 9, Standard destinating flats mailpieces were understated and oldest date
      not properly recorded. As a result of our observations, the MCRS report was
      updated from 87,306 pieces with the oldest date of March 6, to 93,722 pieces with
      the oldest date of February 22.

     On March 10, the oldest date for destinating Standard flats was incorrectly reported
      as March 1. Management subsequently updated the MCRS report to reflect the
      oldest mail date of February 25.

     On June 7, delayed mail volume was understated by 363,780 pieces. As a result,
      the MCRS report was updated to reflect 47 pallets of delayed letters.

Not properly reporting delayed mail may prevent management from making effective
operational decisions, including plans to ensure timely mail processing.

As a result of our observations, management implemented several internal controls,
effective July 12, 2011. First, Richmond P&DC In-Plant Support assumed oversight and
accountability for MCRS reporting. Additionally, the Capital Metro Area mandated daily
MCRS reporting reviews by this group. Finally, the Richmond P&DC provided daily

                                                11
Timely Processing of Mail at the Richmond, VA                                                   NO-AR-11-008
 Processing and Distribution Center


delayed mail reports to the Distribution Operation managers and area office for review
and action, if necessary.

Machine Mail Damage

Mail damage as a result of poorly packaged mailpieces resulted in some delayed
processing of flat mailpieces. We observed the processing of several hundred flat
mailpieces containing video discs. These mailpieces frequently jammed both during
induction, and as they moved from induction to the carousel on the AFSM 100.
Following several machine jams, the AFSM 100 operator removed the remainder of the
mailpieces and sent these flats to manual operations for processing. During our
observations of manual operations, we noted a backlog of mail that resulted in
additional mail delays.

Impact

Because of delayed mail, the Richmond District experienced a negative impact on
customer service. For example, the Richmond P&DC’s service scores have generally
lagged behind national and other Capital Metro service scores for FY 2010 and the first
two quarters of FY 2011 (see Table 9).

                                   Table 9: EXFC Service Scores

                                                Richmond
                             Mail Class           P&DC              Capital Metro          National
                             Overnight            93.70                96.30                95.90
  Quarter 1, FY 2010          Two-Day             87.52                91.47                92.47
                             Three Day            87.44                91.02                89.08
                             Overnight            94.95                95.89                96.09
  Quarter 2, FY 2010          Two-Day             88.48                90.98                92.83
                             Three-Day            85.22                90.39                90.39
                             Overnight            96.51                97.10                96.79
  Quarter 3, FY 2010          Two-Day             94.07                94.50                94.86
                             Three-Day            93.86                94.00                93.35
                             Overnight            94.61                96.92                96.73
  Quarter 4, FY 2010          Two-Day             93.67                94.06                94.94
                             Three-Day            94.44                93.74                93.66
                             Overnight            94.61                96.23                96.05
  Quarter 1, FY 2011          Two-Day             86.50                91.56                92.57
                             Three-Day            87.31                90.25                89.25
                             Overnight            96.13                96.51                96.14
  Quarter 2, FY 2011          Two-Day             88.51                91.49                92.58
                             Three-Day            88.45                90.20                89.74
Note: Red text indicates that Richmond P&DC service scores were lower than Capital Metro
and national service scores.




                                                       12
Timely Processing of Mail at the Richmond, VA                                                    NO-AR-11-008
 Processing and Distribution Center


Our results also determined that Richmond P&DC destinating flat FCM service scores
were significantly lower than the Capital Metro Area and national service scores, except
for Three-Day in Quarter 2, FY 2011 (see Table 10). Destinating flat FCM comprises
approximately 57 percent of total FCM volume. During the first two quarters of FY 2011,
on average, destinating FCM Richmond scores trended lower than Capital Metro and
national service scores by between 4 to 11 percent (see Table 10).

                            Table 10: Destinating Flat Service Scores

                            Mail Class           Richmond             Capital Metro          National
                            Overnight             85.85%                90.95%               90.55%
  Quarter 1, FY 2011        Two-Day               74.04%                82.07%               84.63%
                            Three-Day             71.59%                82.03%               78.40%
                            Overnight             81.82%                90.79%               90.55%
  Quarter 2, FY 2011        Two-Day               76.58%                81.08%               84.20%
                            Three-Day             81.20%                80.57%               79.07%
Note: Red text indicates that Richmond P&DC service scores were 4 to 11 percent lower than
Capital Metro and national service scores.

Recommendations

We recommend the district manager, Richmond District:

    1 Promptly assess the current mail volume and swiftly adjust workhours,
      assignments, sort plans, transportation, and any other operational requirements
      to ensure the Richmond Processing and Distribution Center meets customer
      service commitments.

    2. Increase the Automated Package Processing System, Small Parcel Bundle
       Sorters, and Automated Flat Sorter Machine’s window of operation and reduce
       idle time during peak volume periods.

    3. Train employees to ensure proper color-coding of Standard Mail according to
       Postal Service policy.

    4. Direct the district color-code coordinator to conduct periodic color-code reviews
       and provide program oversight.

    5. Provide mail condition reporting training and oversight to employees.

    6. Notify customers to modify poorly packaged mailpieces to expedite processing.




                                                       13
Timely Processing of Mail at the Richmond, VA                                 NO-AR-11-008
 Processing and Distribution Center


Management’s Comments

Management agreed with the recommendations and indicated they have created a Lean
Six Sigma team to address delayed mail concerns and developed a scheduling model
to assist plant management in aligning resources with workload. Management has also
filled vacant craft positions and appointed a new plant manager. Additionally, they are
working to fill their vacant supervisory positions. To increase machine run times, plant
management established daily tracking mechanisms to monitor machine throughputs,
runtime, and productivities. Management reported that color-coding has improved
through additional training, assignment of a new color-code coordinator, and posting of
additional instructional signage in the facility. The area office will begin conducting
audits of MCRS reporting to supplement in-plant support audits. To mitigate mail
damage, the Richmond P&DC is informing customers of problems with mail make-up
and the manual flat unit has been relocated to increase management visibility. See
Appendix B for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective action should resolve the
issues identified in the report.

The OIG considers recommendation 1 significant, therefore, requires OIG concurrence
before closure. Consequently, the OIG requests written confirmation when corrective
actions are completed. This recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




                                                14
Timely Processing of Mail at the Richmond, VA                                               NO-AR-11-008
 Processing and Distribution Center


                             Appendix A: Additional Information

Background

The Richmond P&DC is in the Richmond Customer Service District in the Capital Metro
Area. The following map shows the Capital Metro Area districts by 3-digit ZIP Code™.

                Map 1: Districts with ZIP Codes in the Capital Metro Area



                                                                             Capital Metro Area
                                                      Baltimore
                                                                       210-212,        FY 2010
                                                                       214-219
                                         Northern Virginia
                                                  201, 220-223,
                                                    226, 227 Capital
                                                                            200, 202-209




                                                        Richmond
                                                         224, 225,
                                                       228-239, 244




                                             Greensboro
                                             270-279, 286




                                                   Mid-Carolinas
                                                        280-285,
                                                        287-289, 297



                            Greater So Carolina
                                   290-296




The Richmond P&DC is a new state-of-the-art facility activated on October 1, 2009,
equipped with the latest mail sorting technology. The facility has 715,743 square feet of
interior space. The Richmond P&DC processed more than 1.3 billion pieces of mail and
used 1.6 million workhours in FY 2010. The facility processes Priority Mail, FCM,

                                                             15
Timely Processing of Mail at the Richmond, VA                               NO-AR-11-008
 Processing and Distribution Center


Periodicals, Standard Mail, and Packages. As of Pay Period 13, calendar year 2011, the
facility has 1,163 bargaining unit employees.

Objective, Scope, and Methodology

Our objective was to determine whether mail at the Richmond P&DC was processed
timely. To meet our objective, we conducted interviews; performed analysis of mail
volumes, workhours, and machine output; analyzed trends; and conducted observations
of the facility.

We used computer-processed data from the MCRS System, Enterprise Data
Warehouse, and Management Operating Data System. We pulled data from
October 1, 2008, through March 31, 2011, but did not test controls over these systems.
However, we checked the reasonableness of results by confirming our analysis and
results with management and multiple data sources.

We conducted this performance audit from May through September 2011 in accordance
with generally accepted government auditing standards and included such tests of
internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on June 9, 2011, and included their
comments where appropriate.




                                                16
      Timely Processing of Mail at the Richmond, VA                                           NO-AR-11-008
       Processing and Distribution Center



      Prior Audit Coverage

                                            Final
                         Report            Report
   Report Title          Number             Date                   Report Results
Fort Worth             NO-AR-09-009       9/14/2009    We recommended that management follow
Processing and                                         established standards for identifying
Distribution Center                                    employees with attendance problems and
Delayed Mail                                           ensure necessary disciplinary actions are
Issues                                                 taken for those who abuse leave privileges
                                                       and ensure a sufficient number of
                                                       employees are available to work AFSM to
                                                       process Standard Mail and Periodicals
                                                       timely. Management agreed with our
                                                       findings.
Timeliness of Mail     NO-AR-09-002       1/29/2009    We recommended management monitor
Processing at the                                      delayed mail daily and develop action plans,
San Juan                                               if necessary, to ensure timely processing of
Processing and                                         mail; develop and submit a request to modify
Distribution Center                                    the Universal Sorter Machine to reduce
                                                       damaged mail; assign accountability to
                                                       ensure dispatches to the islands are
                                                       accurate and expedite turn-around time of
                                                       any mail sent to the wrong island; increase
                                                       small parcel bundle sorter and AFSM
                                                       windows of operation during peak volume
                                                       periods; ensure employees are properly
                                                       trained to identify delayed mail and ensure
                                                       all mail is accurately reported on Web
                                                       MCRS; and consider and weigh the benefits
                                                       of service over risks to all the U.S. Virgin
                                                       Islands to keep and cancel local letter mail
                                                       as is done in other U.S. territories.
                                                       Management agreed with our findings.
Delayed Mail at the    NO-AR-08-006       8/14/2008    We recommended management ensure
North Texas P&DC                                       supervisors oversee mail processing,
                                                       monitor delayed mail regularly, and develop
                                                       action plans; develop and implement a mail
                                                       arrival profile; ensure Standard Mail and
                                                       Periodicals are staged and processed using
                                                       first-in, first-out procedures; rearrange
                                                       delivery bar code sorters or move sort
                                                       programs to different pieces of mail sorting
                                                       equipment to eliminate bottlenecks in the
                                                       dispatch of delivery point sequence mail;
                                                       and direct sack mail operations be returned
                                                       to the Dallas Bulk Mail Center. Management
                                                       agreed with our findings.




                                                      17
Timely Processing of Mail at the Richmond, VA                  NO-AR-11-008
 Processing and Distribution Center



                           Appendix B: Management’s Comments




                                                18
Timely Processing of Mail at the Richmond, VA        NO-AR-11-008
 Processing and Distribution Center




                                                19
Timely Processing of Mail at the Richmond, VA        NO-AR-11-008
 Processing and Distribution Center




                                                20
Timely Processing of Mail at the Richmond, VA        NO-AR-11-008
 Processing and Distribution Center




                                                21
Timely Processing of Mail at the Richmond, VA        NO-AR-11-008
 Processing and Distribution Center




                                                22
